NEWS
 United States Department of Justice
 U.S. Attorney, District of New Jersey
 970 Broad Street, Seventh Floor
 Newark, New Jersey 07102
Ralph J. Marra, Jr., Acting U.S. Attorney

More Information? Call the Assistant U.S. Attorney or other contact listed below to see if more
information is available.

News on the Internet: News Releases and related documents are posted at our website.
Go to: http://www.usdoj.gov/usao/nj/press/index.html


Contact:                                                        sing0707.rel
Michael Drewniak, Public Affairs Officer            FOR IMMEDIATE RELEASE
973-645-2888                                                     July 7, 2009




       Charter Flights Director of Defunct Private Jet Company
                   Admits Using Unqualified Pilots
             – Flights Included Jet that Crashed at Teterboro in 2005 –


                                           (More)



Public Affairs Office                                                          973-645-2888
Michael Drewniak, PAO

   \
                http://www.usdoj.gov/usao/nj/press/index.html
NEWARK – The director of charters of a now-defunct luxury charter jet company who
booked and dispatched a flight from Teterboro Airport which crashed on takeoff in 2005
pleaded guilty today to a conspiracy to defraud charter customers and brokers and to
impede and obstruct the Federal Aviation Administration, Acting U.S. Attorney Ralph J.
Marra, Jr. announced.

Joseph Singh, 37, of Boca Raton, Fla., admitted during his guilty plea before U.S. District
Judge Joseph A. Greenaway, Jr., that he dispatched unqualified or unrested pilots –
including the pilot of the jet that crashed at Teterboro on Feb. 2, 2005 – to fly charter
customers for Platinum Jet Management of Fort Lauderdale.

Singh pleaded guilty to the lead count of a 23-count Indictment, charging him with
conspiracy to commit wire fraud and to defraud the United States (the FAA), according to
Assistant U.S. Attorney Scott B. McBride. Following the guilty plea, Judge Greenaway
scheduled sentencing for Oct. 26.

The defendant faces a maximum sentence of five years in prison and a fine of the greatest
of $250,000 or twice the gross gain or loss caused by his offense. In addition, Judge
Greenaway must order that Singh pay restitution to the victims of his offense.

During the plea hearing today, Singh admitted that he was the “director of charters” for
Platinum Jet from November 2003 until shortly after the Teterboro crash. As the director
of charters, Singh stated, he booked charter flights for Platinum Jet using charter brokers
and dispatched Platinum Jet pilots to fly those flights. According to Singh, he dispatched
unqualified pilots to fly a number of those flights, while representing to the charter
brokers through wire communications that Platinum would operate in compliance with
federal law.

According to Singh, he dispatched John Kimberling, who was not commercially
qualified, to fly the ill-fated flight from Teterboro to Chicago. The plane crashed into a
warehouse after failing to lift off. Singh admitted that he knew Kimberling was not
qualified to fly that flight, and he further admitted to dispatching Kimberling on other
flights.

Singh has five co-defendants, including Michael and Paul Brassington, Andre Budhan,
Brien McKenzie, and Francis Vieira. Budhan pleaded guilty on June 22 before Judge
Greenaway to the same conspiracy count as Singh. The remaining four defendants have
pleaded not guilty to the charges and are scheduled for trial before Judge Greenaway on
Jan. 19.

In determining Singh’s actual sentence, Judge Greenaway will consult the advisory
United States Sentencing Guidelines, which provide appropriate sentencing ranges that

                                                                                             2
take into account the severity and characteristics of the offense, the defendant’s criminal
history, if any, and other factors. The Judge, however, is not bound by those guidelines in
determining a sentence. Parole has been abolished in the federal system. Defendants
who are given custodial terms must serve nearly all that time.

Marra credited Special Agents of the Department of Transportation Office of the
Inspector General, under the direction of Inspector General Calvin L. Scovel III and
Special Agent in Charge Ned E. Schwartz, for the successful prosecution.

The government is represented by Assistant U.S. Attorney Scott B. McBride of the U.S.
Attorney's Government Fraud Unit.

                                          -end-

Defense Counsel:
Mark A. Douglas, Esq., Miami, Fla.




                                                                                         3
